  Department of Health and Human Services

          OFFICE OF

     INSPECTOR GENERAL





HEALTH EDUCATION ASSISTANCE LOAN

                             (HEAL)




                  ERVJCES'
                             -1
                              Richard P. Kusserow
                              INSPECTOR GENERAL
        '0

                                  OEI- 02- 90- 00980
             olq"'d
                    EXECUTIVE SUMMARY

PURPOSE

The purpose of this inspection is to ascertain the degree of implementation, effectiveness and
support for the recent regulatory reforms of the Health Education Assistace Loan (HAL)
program. It also assesses whether further reforms, such as performance standards and
risk-sharng; are considered   necessar and what their possible effectiveness might be.


BACKGROUND


This study was initiated because of high- level concerns about financial problems the HEAL
program has been experiencing due to an increasing default rate. The Public Health Service
(PHS) projects the Student Loan Insurance Fund (SLIP) wil not have suffcient funds to pay the
increasing number of claims.

The Deparent has, over the last few years, announced regulatory reforms to reduce the HEAL
default rate and keep the SLIP solvent. These include requirng schools to conduct entrance and
exit conferences and needs analyses, and having lenders conduct credit checks, exercise due
diligence, including preclaim assistance , and initiate litigation where collection attempts have
failed.

Performance standards and risk-sharng have both been proposed as furter ways to strengthen
HEAL. Lastly, and very significantly, the President s budget for Fiscal Year 1991 calls for the
phasing out of the HEAL program. However, the phasing out wil requir Congressional action
and may take many years due to the long- term nature of the loans.


METHODOLOGY

This inspection was based on: a literature review; an examination of HEAL Annual Reports; a
stratified random sample of 120 school programs paricipating in HEAL; and information
gathered from 120 financial aid offcers from the sample schools and from offcials of the top ten
HEAL lending institutions. Contacts were also made with several Federal managers experienced
in risk-sharng in other Federal programs to determine to what extent it has been effective in
helping to reduce default rates.
FINDINGS

Reforms Are Widely Implemented And Generally Supported; Opinions Vary About Their
Effectiveness.

The inspection found that both schools and lenders are fully implementing the recent feforms.
All reforms are supported by both schools and lenders with the exception of litigation. However
preliminar evidence suggests that litigation is successful in 25 percent of the cases. Overall
both schools and lenders feel it is too soon to judge the long-term effectiveness of the reforms.
Some impact has , nevertheless, already been noticed.

Most Schools And Half The Lenders Believe Performance Standards Wil Be Effective; Almost
All Oppose Their Use.

Although most schools object to the implementation of performance standards , more than
two- thirds feel that performance standards wil be either somewhat or very effective in reducing
the default rate. Half the lenders agree that performance standards will be effective. This
approach was successful in reducing the default rate in the Health Professions Student Loan
(HPSL) program , also sponsored by the Deparent.

Mixed Views Exist On The Use And Value Of Risk-Sharing.

Both the schools and lenders believe schools should not be required to paricipate  in risk-sharng
and doubt that the schools ' paricipation would be effective. However , schools see lenders in
that role and feel lender paricipation wil be effective. Nolenders support risk-sharng for
themselves. One- half say that they wil drop out of HEAL with risk-sharng, and some mention
that it would cause them to be more restrctive and limit who gets the loans. In any event
neither group feels risk-sharng is actually needed to save HEAL.


RESPONDENT RECOMMENDATIONS

When asked for suggestions on how to improve the HEAL program , schools and lenders most
frequently volunteered the following innovative ideas:

          Change the terms of the loan , such as eliminating compounding interest and reducing
          the interest rate (which are now being done by a few lenders), and reducing the
          maximum loan amount and basing a tiered insurance premium on the default rate of
          each discipline.

          Impose stricter penalties for defaulters, such as garnisheeing wages, offsetting
          Medicare and Medicaid reimbursement, withholding professional licenses and
          providing no bankruptcy forgiveness.
           Improve communication and coordination among schools, lenders, borrowers and the
           Federal government.


RECOMMENDATIONS

We recommend that performance standards be implemente without delay. Our
recommendation is based on predictions of schools and lenders that they wil be effective, by the
successful recent experience of the HPSL program with performance standards, and by our
analysis of HEAL default experience to date which suggests substantial future savings with the
use of performance standards. It shows that if all schools had maintained a default rate of no
more than five percent it would have resulted in $20. 5 million not being claimed, which
represents almost 18 percent of all default dollars since the program began. These stadards
would be a useful tool should the program be retained and would, of course, be beneficial durig
a phase-out period.


COMMENTS

Comments on the draft report were received from PHS and ASPE which concur with the
recommendations of this report. The PHS believes that the final rule for performance standards
wil be published by   September 1991.
                        ..............................................
                       "'"''''''''''''''''''''''''''''''                ............ ..............
                                                         ...... .............................
                                                  ................                                   ..........................................
                                                                                     ................................................................
                                                                                              ................................................
                                                                                                   .......... .................... ...................
                       ...................................................................................................                  .... ....




                        TABLE OF CONTENTS

EXECUTIVE SUMMARY

INTRODUCTION..................................................................................................... .


PURPOSE................. ........... 


BACKGROUND ........... 


METHODOLOGY.................................................................................................... .


FINDINGS ..................................................................................................................


       Reforms Are Widely Implemented And Generaly Supported;
       Opinions Var About Their Effectiveness............................................................


       Most Schools And Half The Lenders Believe Performance Stadards
       Wil Be      Effective; Almost All Oppose Their Use ................................................


       Mixed Views Exist On The Use And Value Of Risk- Sharng ............................

RESPONDENT RECOMMENDATIONS .............................................................

RECO MMEND A TIO NS ..................................... ....

COMMENTS........................................................................................................... .

APPENDIX A .                                                                                                                                   A - 1


APPENDIX B                                                                                                                                     B - 1


APPENDIX C                                                      .................................................................... C - 1
                              INTRODUCTION

PURPOSE

The purpose of this inspe.ction is to ascertain the degree of implementation , effectiveness and
support for the recent regulatory reforms of the Health Education Assistace Loan (HAL)
program. It also assesses whether further reforms, such as performance standads and
risk-sharng, are considered   necessar and what their possible effectiveness might be.


BACKGROUND

HEAL Program

This study was initiated because of high- level concerns about fmancial problems the HEAL
program has been experiencing.

The cost of financing an education in the health professions escalates every year. Rising tuition
and living expenses make training in such fields increasingly expensive. Few students can meet
these costs by relying solely upon their own or their parnt s income and, therefore, most depend
on loans. In response to this need, the Federal government, States and varous private
organizations offer loans to these students. The HEAL program, an insured- loan program
administered by the Deparent of Health and Human Services (DHHS), is an importt source
of such funding.

The DHHS established the HEAL loan program in 1976. It is managed by the Public Health
Service (PHS), in cooperation with parcipating schools and lenders. Schools determine the
costs of attendance and the eligibilty of applicants. Lenders make determinations of the
creditwortiness of applicants, issue loans and make collections.

The HEAL program insures loans made by nonfederallendig institutions and was intended to
operate without using Federal funds. It was designed to be self-sustaining by having insurce
premiums deducted from the loan principal at the time of the award. These legislatively capped
premiums, which have raged from 1/4 percent to a current rate of eight percent, are deposited
into the Student Loan Insurance Fund (SLIP). The SLIP reimburses the holder of the loan
(tyically a lending institution) for the full amount of the principal and accrued interest in event
of the borrower s default, death , disabilty or bankptcy.

The HEAL program allows students of medicine, dentistr, osteopathy, veteriar medicine,
optometr, and podiatr to borrow up to $20, 000 per year, not to exceed a total of $80, 000 over
the period of academic study. Students of pharacy, chiropractic medicine, health
administration and clinical psychology may borrow up to $12 500 per year, not to exceed a tota
of $50, 000. The loans have a varable interest rate, which is capped at T- bil plus thee percent
and usually accrues while the student is stil in school. Repayment begins nine months after
graduation or after the completion of an accredited residency or other deferment not to exceed
four years. The maximum repayment period is 25 years.

The HEAL program has grown dramaticaly since its implementation in Fiscal Year (FY) 1978,
in both loans disbursed and default claims paid. Disbursements totaled $85. 6 milion in FY
1979, peaked in FY 1986 to $321.4 milion, and then leveled off at $229.3 milion in FY 1988.
In FY 1989, disbursements totalled $250. 6. Claim payments increased substantially from $0.
milion in FY 1979/1981 to $35. 5 milion in 1988, for an 1989 aggrgate total of approximately
$95. 8 milion.

Emerging Financing Problem

Although the insurance premiums have increased substantially over the years, PHS projects the
SLIP wil not have sufficient funds to pay the incrasing number of claims. To fIl this gap, the
SLIP received a special appropriation of $25 milion in FY 1990. The PHS feels that continuing
deficits over the next few years wil require further appropriations.

In response to a Congressional mandate to investigate the factors causing borrowers to default,
PHS contracted with L.J. Colker & Associates and Applied Management Sciences, Inc. to
conduct a study in 1988 entitled, " A Review of HEAL Defaulters: Their Causes and Corrective
Measures - Par II. " This study found the majority of sureyed HEAL defaulters to be between
the ages of 30 and 39; male; caucasian; non- Hispanc; mared or formerly mared; and having
an average of 1. 16 dependents. Their leading occupation was chiropractic medicine. The study
concluded that defaults occur not because students inappropriately select HEAL as an option , but
rather because of unanticipated problems when the tie came to repay the loan. These problems
include delays in obtaining a license , the need to invest large sums of money when opening a
practice, and not completing their professional education.

The PHS also has contracted with the Development Assistance Corporation (DAC) to design and
document a forecasting model which wil estimate cash flow in futu years. This work has
recently been completed.

Recent Changes

The Deparment announced regulatory reforms, effective Apri 1987, which are designed to
reduce the HEAL default rate and keep the SLIP solvent. These reforms were based priary
upon recommendations made by the Offce of Inspector Genera in a series of audits issued
durig the period 1983 to 1987. They include:

      Entrance and Exit Conferences. Schools are requird to conduct entrance and exit confer­
      ences with HEAL borrowers to advise them of the terms of the loan and to educate them
      about repayment.

     Needs Analysis. 
  HEAL borrowers must undergo a financial needs test by the school to de­
      termine eligibilty and the loan amount for which they qualify.
      Creditworthiness.        The lender must now apply more strngent creditwortiness    standards
      in determining an applicant's eligibilty, including reviewing an applicant s credit history.

      Due diligence. 
 Lending institutions must prove increased due diligence in collecting the
      loan before fiing a default claim , including: employing collection practices that ar at
      least as extensive and as effective as those used in the collection of the lender s other
      loans; immediately notifying an appropriate consumer credit reportng agency regarding
      accounts overdue more than 60 days.


      Preclaim assistance. 
  After the lenders ' attempts at collection have failed, the lender is re­
      quired to notify PHS and request preclaim assistance. The PHS then sends out a series of
      three letters with increasingly strong language to remind the borrower to repay his/her loan.

      Litigation. As of November, 1988, ifthe lenders ' due diligence and PHS' s pre- clais as­
      sistance do not result in repayment, lenders and holders are required to initiate litigation.
      They must refer the case to the local court and obtain a judgement against the borrower
      prior to submitting a default claim to PHS for payment.
Proposed Changes

Based on Public Law 100- 607 , effective November 4 , 1988, which authorized the Secretar to
establish default standards for HEAL schools, regulations wil soon be proposed against which
the default rates of schools, lenders and holders of loans in the seconda market wil be
measured. Schools, lenders and holders with a default rate above a certn percent would not be
allowed to parcipate in the program.

In recent years, the Administration has advanced several other legislative proposals for
improving HEAL , including: . eliminating the eight-percent insurance premium limit; experience
rating the premiums by school , lender or discipline; charging the insurce premium over the
life of the loan; trsferrng responsibilty for the loan from the Federa Government to the
lender in cases of a borrower s death or disabilty; and extending risk-sharng for the ftrst time to
both lenders and schools, so that both would have to pay a specified percentage of an
outstanding loan should one of their borrowers or students default. Pror OIG reports have
supported these proposals. Thus far, Congress has declined to implement any such reforms.

Lastly, and very signifcantly, the Prsident s budget for Fiscal Year 1991 calls for the phasing
out of the HEAL program. However, the phasing out wil require Congressional action and may
take many year due to the long- term nature of the loans.


METHODOLOGY

This inspection was conducted in the following manner: a literature review was conducted and
prior studies were obtained dealing with bank paricipation in the HEAL program , HEAL
defaulters , the SLIP and possible new reforms. The HEAL Annual Reports published by PHS
were reviewed. Next, a stratified random sample of 120 school programs parcipating in HEAL
was developed with 32 alopathic medical , 29 dental, 17 chiropractic, 15 osteopathic medical, 7
podiatr and 20 other specialty programs (See Appendix A). Contacts were then made by phone
and in person with both 120 financial aid offcers from the sample school programs and with
officials responsible for HEAL at the top ten lending institutions, which account for 94 percent
of loans disbursed in FY 1989. Information was obtained from schools and lenders regardig
how the new reforms have impacted on their use of the HEAL loan, and their perceptions
regarding other possible reforms such as performance standards and risk-sharng. Statistics were
gathered on default rates, disbursements , loan amounts and litigation. The experience with
performance standards in the HPSL was analyzed. Finally, information was obtained about other
Federal loan programs which have risk-sharng, and interviews were held with several Federal
managers experienced in these programs to determine to what extent it has been effective in
reducing default rates.
                                     FINDINGS

REFORMS ARE WIDELY IMPLEMENTED AND GENERALLY SUPPORTED;
OPINIONS VARY ABOUT THEIR EFFECTIVENESS.

      Schools Have Implemented Reforms and Support Them Fully.

Entrance and Exit Conferences

Almost all schools conduct the required entrance and exit conferences. Ninety- thee percent
counsel students individually or in groups on the HEAL application process, and ninety-seven
percent meet with students before graduation to discuss repayment. Schools also employ other
innovative counseling procedures to help lower the default rate. These include (1) computer
software programs designed especially to educate students about debt management and (2) exit
meetings between lenders and students to inform students about repayment.

Virually all schools consider entrce   and   exit conferences and ongoing counseling as effective
ways to lower the default rate. In fact, a few schools with low default rates specifcally attrbute
their low rates to their counseling procedures. One respondent states, "We consider our entrance
and exit conferences and debt counseling as substatial steps in dealing with all loan programs,
not just HEAL." Many schools strss the importce of student counseling, financial planning
and debt management in administerig HEAL. Thir-six percent of schools report increasing,
or planning to increase, their counseling efforts despite the fact that over thre- quarers of these
schools have default rates lower than five percent. Over one- fifth of the schools and lenders
volunteered support for extensive student counseling as a means of assurng the continuation
the HEAL program.

When asked for suggestions as to how to improve the HEAL program , 23 percent of schools and
20 percent of lenders volunteered increased student counseling and education, including
maintaning contact with student borrowers after graduation. One respondent states that
 consistency amongst schools in their counseling is needed - students everywhere should be told
the same thing. " Severa schools suggest implementing a financial management program to help
students handle their borrowing; one respondent states, "I would recommend every school have a
financial planning seminar to reach all students. " Other schools indicate that continual personal
contact with students is essential to keeping them apprased of their debt and repayment
obligations. Schools feel that counseling should also be extended to borrowers in residency
programs.

Needs Analysis



All schools report routinely employing a needs analysis to determine HEAL eligibilty and the
amount of the loan. Almost two- thirds consider financial need as a major factor when
recommending HEAL loans and many schools report recommending HEAL only when all other
financial resources are exhausted. Almost an schools report that students consider only their
need for money when applying for a HEAL loan. One respondent reflects the view of many
when she says, " Students used to borrow a lot but since the needs analysis and counseling they
tr to borrow as little as possible, sometimes even less than they are allowed. " One lender
reports some decrease in HEAL usage since the needs analysis.

      Lenders Have Implemented All Reforms; Some Impact Already Seen.

Creditworthiness

All lenders routinely check the credt history of HEAL applicants. All but one had never run
such checks prior to the recent reform. Sixty percent of lenders indicate that more strngent
creditwortiness standards have decreased the number of HEAL borrowers at their institution.
While most applicants are able to resolve their credit problems and obtain a HEAL loan, a
majority of schools and lenders report that a small number of potential student borrowers with
bad credit are ultimately rejected.

Most lenders and schools support the creditwortiness requirment. Lenders believe that credit
checks prevent some high risk borrowers from   tag      out HEAL loans. One lender says, "
now have better customers. " Both schools and lenders mention that such checks make students
aware that they have a credit history and a financial responsibilty to pay back HEAL loans.
Seventy percent of schools feel credit checks wil be effective. A majority of lenders say that
credit checks wil have the most impact on those students that have a credit history to assess.

Due Dilgence


All lenders report exercising strong collection efforts to fulfll the due diligence requirement.
Fifty percent of lenders responsible for collection of these loans believe increased due diigence
such as contacts by phone or in persdn to secur repayment wil help reduce the HEAL default
rate. The remaining lenders feel that they have always been exercising due diigence. Lenders
report exercising due diigence with HEAL to the same extent as with their other loans. Some
mention that because of intensified collection efforts some borrowers finaly file for deferment or
initiate repayment.

Seventy percent of school loan offcers believe due diligence wil   help reduce the   HEAL default
rate. Some loan offcers who keep in contact with their borrowers feel that even stronger efforts
than those required should be made by lenders to keep track of the borrower before he/she
defaults. One respondent mentioned that he knew of several defaulters in his community with
successful practices who the lender made no effort to go after. Schools feel due diligence
increases important communication between the borrower and the lender and forces lenders to be
more aggressive in their collection efforts.

Twenty- three percent of schools, when asked how to ensur the continuation of the HEAL
program , volunteered that lenders need to do the best job possible in servicing the HEAL loan.
These respondents support greater due dilgence, stressing in parcular that collection efforts are
key to reducing the HEAL default rate.
Preclaim Assistance

All lenders report referrng their delinquent borrowers to PHS for preclaim assistance after
having exercised the required due diligence. The PHS reports that preclaim assistance was
effective in obtaning cures - that is, successfully resolving the loan either with repayment,
forbearance or deferment - in 93 percent of the referred cases in FY 1989. This is 18 percent
more than the FY 1988 rate of 75 percent. One lender supports preclaim assistance and says,
 We get deferments now and they ar not turned over as defaults.

Litigation

All lenders initiate litigation against delinquent borrowers when preclaim assistance has failed.
Thirty percent of lenders and forty- three percent of schools feel litigation wil be effective
reducing the default rate.

Lenders report a wide range in the number of cases in litigation , from six to 2200. The PHS
estimates the dollar value of cases currently in litigation to be about $73 milion. Although the
lenders are obtaining judgments against borrowers, the cases often do not result in successful
collection efforts and PHS ends up paying the claims. Neverteless, one major lender, who
holds 60 percent of the HEAL loans, reports that 25 percent of their cases in litigation enter
repayment status. Another major lender agrees when he says, " Once students ar theatened with
litigation 50 percent wil star payment, but only half of them wil probably pay.

Despite the success of litigation , lenders still have serious reservations. Lenders consider
litigation an expensive process which makes it diffcult to sell loans in the secondar market.
One lender considers litigation " fritless " in those cases where borrwers simply can not pay. A
few lenders note that the claims paid are ultimately larger than the initial defaults because
interest accrues while the case is being settled. Sixty percent of-lenders report that litigation has
made them reconsider their paricipation in the HEAL progr. While many schools feel the
threat of litigation might motivate some borrowers to repay, they also consider it a very costly
process , to be used only as a last resort.

      Both Lenders and Schools Feel it is Too Soon to Judge Results of Recent Reforms

Some respondents volunteered that the recent reforms have not been implemented for a long
enough time to judge their long-term effectiveness, and it wil be years before the tre results
wil be known. The current default rate is more reflective of the HEAL progr prior to the
implementation of the reforms. One respondent voices the concern of many when she says,
 There needs to be some time given to see if the changes that have come into effect recently are
workig. " Similarly, another respondent says, " These things take time, you can t wave a magic
wand and make the rate go down.
MOST SCHOOLS AND HALF THE LENDERS BELIEVE PERFORMANCE
STANDARDS WILL BE EFFECTIVE; ALMOST ALL OPPOSE THEm USE.

More than two-thirds of schools feel that performance standards, that is not allowing schools and
lenders with a default rate above a certain percent to paricipate in HEAL, wil be either
somewhat or very effective in reducing the default rate. Half the lenders agree that performance
standards wil be effective. Most schools and lenders feel that performance stadards wil force
some schools out of HEAL and cause some lenders, especialy the smaller ones, to leave
voluntarly.

Performance standards had a positive effect on the Health Professions Student Loan program
(HPSL), also sponsored by DHHS, which provides for long-term, low- interest loans to
exceptionally needy students in allopathic medicine, osteopathc medicine, veterinar      medicine,
podiatrc medicine, optometr, dentistr and pharacy. Parcipating schools administer the
program, collect repayments and are held to a performance standard of a five- percent default
rate. The standards were ftrst proposed in 1982 and finally implemented in 1984. Upon
implementation , the PHS gave schools with default rates above five- percent six months to lower
their rates by one- half. If they succeeded in doing so, they were given another six months to
lower their new rate by yet another fifty percent, until they finaly reached a five- percent default
rate. Ultimately, fewer than seven schools were actually terminated from the program. Schools
were able to successfully lower their default rates because of the following factors: they became
more aggressive in their collection efforts; purchased some of their outstading HPSL loans; and
transferred some of their delinquent HPSL loans into their own institutional loan programs.
the Fall of 1985, Congress also changed the formula used to calculate the HPSL default rate,
thereby reducing schools ' rates, on average, by one-third.

Pror to the implementation of performance standards, HPSL had been experiencing fmancial
diffculty. The overall HPSL default rate has decreased from 12 percent in 1981/1982, to flove
percent by the time performance standards were implemented, to a curent rate of approximately
two percent. The HPSL program is now fmancially sound. It is important to note that a
difference between this program and HEAL is that schools have control over the collection
process in HPSL.

Most schools object to performance standards being implemented. Many schools consider them
unfai for several reasons: they have limited control over the default rate; while they approve
HEAL applications , they are not involved in performing credit checks or in the collection
process; and they have little contact with the borrower after graduation. Schools also consider
unfair the possible loss of HEAL to future students who have had nothing to do with earlier
default rates.

Schools voice concerns about performance standards. Many volunteer that a five- percent
standard would be too low and too diffcult to meet. In fact, most schools suggest that the only
steps they can tae to reach a five-percent default rate are increased counseling and a
continuation of their current efforts. One school respondent offers, " The way to reduce default is
not to slap schools ' and lenders ' hands if they go above the rate. The answer is education of
schools and lenders about the program. " Some schools are also concerned about how the default
rate is calculated. One respondent suggests that the government should clarfy which default rate
is going to be used, adding, " I think it s ridiculous that if a person has six loans and defaults, it
counts as six (defaults) instead of one. " Another issue rased by schools is that other Federal
educational loan progrms such as the Stafford Loan progr run by the Deparent of
Education have higher performance standar rates. In the Staford program when schools reach
a 20- percent standard they must submit a compliance plan, and only if they get to a 30 percent
standard are they out of the program.

Lenders also have concerns about performance standards. Eighty percent feel at least some
lenders would drop out of the program with the implementation of performance standards. Some
feel performance standards would limit lending because lenders would screen borrowers more
carefully. They also maintai that performance standards ar unfai because controllng defaults
is difficult without the abilty to garnish wages or withhold licenses. One lender volunteers that
a five- percent standard is too tough. Sixty percent of the lenders do not envisage takng any
additional steps in the future to reach this mark , because they believe they are aleady doing
what they can to keep their default rates down.

Some schools wil need to reduce their default rates with the implementation of performance
standards. Table 1 below shows the results of projectig    the inspection   sample of 120 schools to
all 310 HEAL school parcipants (See Appendix A). One-hundred out of the 310 schools (32
percent) have default rates which exceed five percent. Sixty-five out of 310 (21 percent) have a
default rate above seven and one- half percent, and fifty schools (16 percent) exceed ten percent.
Table 1 also shows the percent of 1989 dollar disbursed to these schools. An historical analysis
of the deficits incurred by schools whose default rate exceeded five percent provides the
following insight: If al schools had maitained a default rate of no more than five percent it
would have resulted in $20. 5 milion not being claimed, which represents almost 18 percent of
all default dollars since the program began (See Appendi B).




                                              TABLE 1
                  Schools With Default Rates Above performance Standards

     Performance               # of schools             % of schools            % of 1989 HEAL
       Standard              above standard            above standard              $ disturbed
                                 100                        32%                       31%
                                                            21%                       14%
         10%                                                16%
MIXED VIEWS EXIST ON THE USE AND VALUE OF RISK- SHARING.

Although most schools do not think they should be required to paricipate in risk-sharng, they
are evenly divided on whether their parcipation would be an effective tool. Most lenders agree
that schools should not be required to paricipate in risk-sharg, but ar less optimistic (30
percent) than schools as to its effectiveness. Respondents in both groups feel that schools are
already doing what they can in terms of counseling and have limited control over the repayment
process. Respondents also agree that schools cannot aford to pay a share of the default claims.
Sixty-three percent of schools and 40 percent of lenders feel risk-sharng wil cause some
schools to drop out of the HEAL progr.

All lenders and almost one half of schools think lenders should not be required to parcipate in
risk-sharng. Two- thirds of the schools think lender parcipation in risk-sharg would help
lower default rates, but ninety percent of lenders disagre. Several lenders mention that fmancial
risk would not change the way they service HEAL loans. In contrast, schools believe lenders
should incur some financial risk, because lenders have the major responsibilty for the loans and
profit from HEAL. Most lenders (80 percent) and schools (58 percent) do not feel risk-sharg is
needed to maintain HEAL as a solvent program.

All lenders and over 90 percent of schools predict that the implementation of risk-sharng wil
cause some lenders to drop out of HEAL, thereby possibly ending the program. Almost half of
the lenders say they definitely would drop out of the progr if risk-sharng were to occur.
(This is consistent with a Consumer Baners Association study of possible risk sharng in the
Staford Loan Program. That study found that if risk-sharg were to be implemented, 45
percent of their 126 respondents say they would quit student lending altogether, and 30 percent
say they would sharly curtail it.)

Respondents also cite other consequences to borrowers because of risk-sharng. They feel it
would cause lenders to be more restrctive and limit who gets the loans. One lender reflects this
by saying, " We would only make loans to the cream of the crop in the cream of the crop
schools. " This sentiment is supported by the following statement made recently by a
Washington attorney speaking about risk-sharng with the Staford Loan Program. He said,
 Risk-sharng is the worst idea ever to come forward in student lending; if you re forced tocar
10% of uncovered risk , you re also going to be forced to apply traditional credit analysis to
student loan-making decisions. If risk-sharng becomes a reality, the only way the lender can
avoid the risk , no matter what the percentage, is by avoiding high- risk loans. In other words
risk-sharng would defeat the whole purpose of the Staford Loan Program: to serve students and
offer a federal guarantee so students, who otherwise would not be extended credit , wil have the
opportnity to continue their education. " Another lender of HEAL loans says, " Schools and
lenders wil pass on costs to students. " While stil another says, " ... The actual outcome would
be the restrction of educational access to the health professions for large numbers of Americans
parcularly among the neediest and most vulnerable segments of our people.

In attempting to gauge how effective risk-sharg was in lowering default rates we examined
other Federal loan programs which include this feature. These programs are administered by:
the Small Business Administration , the Economic Development Administration , the Veterans
Administration , the Farmers Home Administration , the Martime Administration and the Federal
Housing Administration. With the exception of one program , all have default rates of five
percent or less. These are all non-education loans which differ significantly from HEAL in that
their borrowers usually have a credit history, collateral and other assets. All these programs have
always had risk-sharing. One Federal manager who considers risk-sharng necessary for his
program states, " I can understand (HAL) lenders ' hesitation (in accepting risk-sharing);
educational loans there s no track record to go on. " While a few Federal managers view
risk-sharng favorably, most feel that it does not contrbute to low default rates. Also, no
manager cites risk-sharng as a reason for a low default rate in his or her program.


RESPONDENT RECOMMENDATIONS

Both schools and lenders had suggestions for improving the HEAL program. Aside from
suggesting increasing student counseling and education and requiring continued comprehensive
loan servicing by lenders, respondents most frequently volunteered the following innovative
ideas:

      Change Terms of HEAL Loan. 
      Lenders (50 percent) and schools (37 percent) suggest
      changing the terms of the HEAL loan. These include some steps which are already being
      undertaken by a few lenders, such as eliminating compounding of interest or at least de­
      creasing the frequency of compounding interest, employing graduated repayment sched­
      ules and extending forbearance and grace periods for repayment. They also include basing
      a tiered insurance premium on the default rate of each discipline and reducing the maxi­
      mum amount of the HEAL loan. For example, one school reduced its default rate substan­
      tially by discouraging the use of HEAL for those students whose cumulative debt had
      reached $50 000. Schools recommend reducing the cap on the interest rate while lenders
      advocate eliminating it.

      Impose Stricter Penalties for Defaulters. 
  Lenders (50 percent) and a few schools (12 per­
      cent) suggest strcter penalties for defaulters, such as garisheeing wages , offsetting Medi­
      care and Medicaid reimbursement, withholding professional licenses and providing no
      bankruptcy forgiveness. One school states, " Don t let bankrpt borrowers be discharged
      from repayment; we need to work with them to keep them in the system. " Another de­
      clares, " Put the onus of responsibility where it should be, on the borrower... recover the
      (default) through garisheeing wages or other ways.

      Improve Communication and Coordination. 
   Schools (41 percent) and lenders (20 per­
      cent) mention that communication and coordination among schools , lenders, borrowers
      and the Federal government needs to be improved. Several schools suggest that PHS keep
      them routinely informed about any changes to the HEAL program , such as providing a pol­
      icy and procedures manual. They also recommend that schools and lenders cooperate with
      each other in locating delinquent borrowers. Numerous schools suggest that coordination
      with the secondar market be improved , so that when lenders sell HEAL loans to these
      markets , borrowers know who the new holder of their loan is. They would then know
      where to file for deferment or forbearance or where to send their payments. One respon­
      dent suggests a centr clearnghouse, accessible to all lenders, be established for all bor­
      rower deferment forms. One respondent recommends instituting a one- lender rule so that
      borrowers are required to go to the same lender for al of their educational loans.


RECOMMENDATIONS

We recommend that performance standards be implemented without delay. Our
recommendation is based on predictions of schools and lenders that they wil be effective, by the
successful recent experience of the HPSL progr with performance standads, and by our
analysis of HEAL default experience to date which suggests substantial futur savings with the
use of performance standards. It shows that if all schools had maintained a default rate of no
more than five percent it would have resulted in $20. 5 millon not being claimed, which
represents almost 18 percent of all default dollars since the progr began. These stadards
would be a useful tool should the progrm be retained and would, of course, be beneficial durg
a phase-out period.


COMMENTS

Comments on the draft report were received from both PHS and ASPE which concur with the
recommendations of this report. The PHS believes that the final rule for performance standards
wil be published by   September 1991.
                       :::\         """"'" ,.. . ...........,...."",""............
                                                   .........""",.,",."",.,,.......... ..........
                                                                                           ... ... .......
                                                                                                    .... ..........
                                                                                                              ...... .......




                                                                   APPENDIX A

   METHODOLOGY FOR SELECTING SAMPLE AND PROJECTING EFFECTS
        PERFORMANCE STANDARDS ON SCHOOL PARTICIPATION

One hundred and twenty schools were contacted for this inspection. These 120 are a stratified
random sample of all 310 schools participating in HEAL and were selected on the basis of
specialty and number of HEAL loans per school. To make national generalizations the figures
from the sample were weighted. The following table gives the specialty, the total number of
participating schools within each specialty (N), the total amount of HEAL money disbursed in
1989 within each specialty (TA), and the number of schools selected from each of the specialties.
In addition the table shows the estimated number of schools with a default rate above 5 percent
  5 percent and 10 percent. This estimate was projected from the weighted sample of HEAL
schools.

                                                          Total HEAL                                                            Estimated Number of Schools
  Specialty               Total #                          1989 (TA)                              Sample                         with a Default Rate Above:
  & Loans                of Schools                        Disburse­                              Schools
                                                             ments                                                                                      10%

Medical
       Less
       than 80                                                  $7, 989,421
       Loans
       More
       than 80                                                  93,647, 907
       Loans
Dental
       Less
       than 40                                                     1,462, 917
       Loans
       More
       than 40                                                         721, 537
    Loans
Osteo athic                                                     42,409, 733
Chiro ractic                                                    26, 833, 776
Podiatric                                                       21 770707
Other                                                              871, 807
                       _,n,..,.,.
                                siO                    .:$ZSm7b7\SbS                      /:=\\l!lbU

 Projected within each strata of the universe of                                                          310        schools.
                                 APPENDIX 

     METHOD FOR ESTIMATING THE DOLLAR EFFECT OF A FIVE PERCENT
                                PERFORMANCE STANDARD

Examining default and claims experience data from PHS as of March 31, 1990 reveals that 124
out of 384 schools paricipating in HEAL have a historical default rate of over 5 percent. The
PHS defines claims losses as defaults, bankptcy, death and disability. Defaults losses are
composed of defaults only. Based on the default rate and tota default dollars of these 124
schools ($39, 052 000), the total amount of dollars eligible for repayment was calculated for each
school. Our calculation then showed the tota amount of default dollars would have been
$18,529,000 had these schools always maitained a 5 percent default rate and subtracted this
figure from the actual default dollars. This difference of $20, 523, 00 is the amount of HEAL
dollars the program could have saved had a 5 percent performance standad always been in
effect. It represents approximately 18 percent of $115, 984 000 in defaults paid since the
program began.
    APPENDIX 

COMMENTS ON THE DRAFT REPORT





            C­
                                     \.                                                   ...
                                                                                          -.
                                                                                        :...::
                                                                                            "', ,   ;.. -:.
                                                                                                        ......
                                                                                                            .j-
                                                                                                             .. ".-.:
                                                                                                                 ".) "
 .
                                                                                                               .:.,.-;.'

                  DEPARTMENT OF HEATH &. HUMA SERVICES                Pub lic Health Service


'''.0                                                                     emorandum
        Date          FEB - 8 1991

        From      Assistant Secretary for Health

        Subject   PHS Comments on Office , of Inspector General   (DIG) Draft Report

                   Heal1:h Education Assistance Loan (HEAL)"

                  Inspector General, OS



                  Attached are the PHS comments i" response to the subject DIG

                  draft report.


                  We concur with the report' s recommendation and have       initiated
                  actions for complete implementation.


                                                             (). /k
                                                            Mason, M. D., Dr.


                  Attachment



                                                                                                        r -,:





                        ?DIG
                                                                                          r;.:
                        DIG-AS
                        DIG­
                         DI8­
                         AlG-IX?
                         000/10
                         EX SEC
     !l I U1.­

                         DATE SENT
           PUBLIC HEATH SERVICE (PHS) COMMENTS ON THE OFFICE OF

           INSPECTOR GENERA (OIG) DRAT REPORT " HEATH EDUCATION

                  ASSISTANT LOAN (HEA)" (OEI- 02- 90- 00980)


OIG Recommendation

We recommend that performance standards be
       plemented without

delay.
PHS Comment,
We concur. A Notice of Proposed Rulemaking for the

     plementation of performance standards for HEA was published
in the 
  Federal Reaister on October 1, 1990. The public comment
period ended on Novemer 30, 1990, and the 122 responses
recei ved are presently under review. Because of the complexity
of the comments, it will take several months to complete the
review, draft the appropriate Governent response, and modify
the draft to incorporate changes that may arise from
Departmental clearances. Accordingly, we believe that the
final rule should be published by Septemer       1991. In
                                                        addition
to the above actions, HRSA' s Bureau of Health Professions
recently awarded' a contract to identify and evaluate other loan
default prevention strategies that may be relevant for the HEA
program .
                                                                                    .--- ::-
                                                                                   ::


        DEPARTMENT OF HELTH II HUMAN 5ERVICE5	
                                                                    Ofce of the   Seet
                                                                   . Washingron . D. C. 20201
                                        28mJ

 TO:	                 Richard P. Kusserow
                                         CJ
                      Inspector General                                                  G') r'1



 FROM:	               Assistant Secretary for
                                                                                    I'J :;,,, -n
                                                                                              c C"
                                                                                                 rn
                      Planning and Evaluation
                                                  en
                                                                                          i'- -0

                                                                                                rn I"
SUBJECT:	             OIG Draft Report: II Health   Education Assistance Loa
                      (HE) , II OEI-02-90-00980-- CONCUENCE
Thank you for the opportunity to review the draft report on the

OIG study of the degree of implementation
support for the recent regulatory reforms ,ofeffectiveness , and

                                               the Health Education

Assistance Loan (HEAL) program. This is an important study that
provides information which will be useful to the Departent

particularly now that we are examining options for legislative

changes in the Department' s health professions student assistance

programs , including HEAL.
I concur with your general recommendation that performance
standards be implemented without              delay. I also find of interest
the respondent recommendations , particularly those of lenders and
schools regarding changing t e terms of the HEAL loan
decreasing the frequency of compounding of              (e. g. , by
tiered insurance rate on the default rate of each discipli
 a

                                            interest), basing
reducing the maximum amount of the                              , and

                                    HEL loan.   These are   ideas

that deserve serious consideration as we try to strengthen our

health professions student assistance programs.





                                    Ma in 	    Gerry



                             V ­

        PDIG
        DIG-AS

           IG-EI

        . DIG- OI 

         AIG-MP 

         OGC/IG

          EXSEC

          DATE SENT
